Before the Transportation and Infrastructure Committee
Subcommittee on Aviation
United States House of Representatives


For Release on Delivery
Expected at
10:00 a.m. EDT
                            Aviation Safety: FAA’s
Thursday
March 29, 2007              Oversight of Outsourced
CC-2007-035
                            Maintenance Facilities



                            Statement of
                            The Honorable Calvin L. Scovel III
                            Inspector General
                            U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify on the Federal Aviation Administration’s
(FAA) oversight of outsourced air carrier maintenance. Our testimony today is based
on a number of our previous reports as well as our ongoing work. At the outset, it is
important to note that while the United States has the most complex aviation system
in the world, it is also the safest. Multiple layers of controls in air carrier operations
and maintenance processes, along with FAA’s oversight, are largely responsible for
the high level of safety that we have seen in the last 5 years.

This safety record is a remarkable accomplishment given the many changes occurring
within the industry. For example, as air carriers continue to struggle for profitability,
they are aggressively working to cut costs by reducing in-house staff, renegotiating
labor agreements, and increasing the use of external repair facilities.

Today’s aviation environment continues to evolve. Since 2001, eight commercial air
carriers have filed bankruptcy, two major air carriers have merged, and one has
ceased operations. While four of the eight air carriers have emerged from bankruptcy,
fuel prices continue to climb; this makes cost control a key factor in not only
sustained profitability but overall survival of an airline. Personnel and aircraft
maintenance are significant cost areas within an air carrier’s operations. Outsourcing
maintenance has been a primary tool that air carriers have used in recent years to
reduce costs.

Air carriers have outsourced maintenance for years because external repair facilities
can complete repairs for less cost and provide services in areas such as engine repair
that would otherwise require air carriers to have specialized expertise and staff.
However, in recent years, use of external repair facilities has become more
pronounced. As shown in figure 1, from 1996 to 2005, while total maintenance costs
have fluctuated, air carriers continued to increase the percentage of costs spent on
outsourced maintenance from 37 percent to 62 percent, or nearly $3.4 billion of the
$5.5 billion spent on maintenance. During the first three quarters of 2006, the amount
of outsourced maintenance increased to 64 percent.




                                                                                        1
                 Figure 1. Percentage Increase in Outsourced Maintenance
                     Expense for Major Air Carriers 1 From 1996 to 2005

             $7.0


             $6.0


             $5.0
      Billions




             $4.0
                                                                                                        62%

                                                             47%                               54%
             $3.0
                                             45%    44%               47%       51%
                                      41%
                           38%
             $2.0
                    37%

             $1.0


             $0.0
                    1996   1997       1998   1999   2000      2001    2002      2003           2004     2005
        Source: U.S. DOT Form 41 Reports              Calendar Year     Contract Maintenance          Total
                                                                        Expense                       Cost




It is important to note that the issue is not where maintenance is performed but that
maintenance requires effective oversight. Our past reports have identified challenges
in FAA’s ability to effectively monitor the increase in outsourcing. For example, in
July 2003, we reported 2 that FAA had not shifted its oversight of aircraft maintenance
to the locations where the maintenance was performed. Although air carriers were
using external repair facilities to perform more of their maintenance work, FAA still
focused most of its inspections on the maintenance work that air carriers performed
within their own facilities.

FAA has taken a number of steps to improve its oversight, and we will discuss some
of those improvements today. However, the continuous growth in outsourcing
underscores the need for FAA to remain vigilant in its efforts to continually improve
its oversight.

Today, I would like to discuss three areas, as we see them, for strengthening FAA’s
oversight of outsourced air carrier maintenance:

    • Advancing FAA’s risk-based oversight systems: During the past 8 years, FAA
      has taken important steps to move its safety oversight for air carriers and repair
      stations to risk-based systems. FAA’s new oversight system for repair stations is
      designed to help FAA inspectors focus their outsourced maintenance oversight on
1
    Alaska Airlines, America West Airlines, American Airlines, Continental Airlines, Delta Air Lines, Northwest
    Airlines, Southwest Airlines, United Airlines, and U. S. Airways.
2
    OIG Report Number AV-2003-047, “Review of Air Carriers’ Use of Aircraft Repair Stations,” July 8, 2003.
    OIG reports and testimonies can be found on our website: www.oig.dot.gov.


                                                                                                               2
      areas that pose the greatest safety risks. FAA is clearly on the right path; however,
      the risk-based systems are not yet at an end state. FAA’s risk-based system for air
      carriers needs to be more flexible and comprehensive, and FAA needs to ensure
      that inspectors are effectively using the new system for outsourced maintenance.

    • Determining where the most critical maintenance is performed and how it
      should be monitored: FAA cannot effectively implement a risk-based system for
      oversight of aircraft maintenance if it does not know where the maintenance is
      performed. In July 2003 and December 2005, 3 we reported that FAA did not have
      good systems for determining which repair facilities air carriers were using to
      perform their most critical maintenance. FAA has developed new inspector
      guidance and air carrier processes to address this problem, but these efforts still
      fall short of providing FAA with the information it needs. For example, FAA has
      developed a voluntary process for air carriers to report the top 10 critical
      maintenance providers used each quarter. However, as long as the process is
      voluntary, FAA cannot be assured that it is getting the accurate and timely
      information needed to determine where it should focus its inspections.

    • Ensuring inspectors are well-positioned and properly trained to adequately
      oversee maintenance outsourcing: FAA has approximately 3,865 inspectors
      located in offices throughout the United States and in other countries. FAA
      inspectors must oversee both domestic and foreign aspects of air carriers’
      maintenance operations—a task made more difficult by the rapidly changing
      aviation environment. The pace of these changes makes it imperative for FAA to
      maintain a sufficient number of inspectors to perform safety oversight. By 2010,
      44 percent of the workforce will be eligible to retire. However, maintaining an
      adequate workforce is only one of the challenges FAA faces with its inspectors.
      For example, FAA does not have a process to determine the number of inspectors
      needed and where they should be placed. Until FAA develops an effective
      staffing model, it will not be able to make the most effective use of its resources.
      FAA must also ensure that its safety inspectors are sophisticated database users
      with knowledge of system safety principles and an analytical approach to their
      work.

Now, I would like to discuss in more detail some of the changes occurring in the
industry; I will then turn to the areas I would like to focus on this morning.




3
    OIG Report Number AV-2006-031, “Review of Air Carriers’ Use of Non-Certificated Repair Facilities,”
    December 15, 2005.


                                                                                                          3
Recent Trends in Outsourcing
At the request of this Committee, we are conducting a review of the type and quantity
of maintenance that air carriers are outsourcing. We plan to issue a report on this
review later this year. We are finding that the amount, or quantity, of maintenance
that air carriers outsource to domestic and foreign repair facilities has continued to
climb. Further, the work that U.S. air carriers outsource includes everything from
repairing critical components, such as landing gear and engine overhauls, to
performing heavy airframe maintenance checks, which are a complete teardown and
overhaul of aircraft. As shown in figure 2, nine major air carriers 4 we reviewed
increased the percentage of heavy maintenance they outsourced to certificated repair
stations from 34 percent in 2003 to 67 percent in 2006.

             Figure 2. Percentage of Heavy Airframe Maintenance Checks
               Outsourced for Nine Major Air Carriers From 2003 to 2006

                   1400
                   1200
                                       1212                1163               1208
                   1000   1126
     # of Checks




                                                                                     67%
                    800
                                                                  57%                815         Total Checks
                    600
                                 34%          38%
                    400                                           662                            Total Outsourced
                    200          385          455
                      0
                            2003          2004               2005                2006
                                                    Year
Source: Air carrier data

Of the heavy maintenance outsourced by the nine carriers in 2006, 35 percent was
sent to foreign outsourced maintenance providers, up from 21 percent in 2003. The
trend in outsourcing is significant and underscores the need for FAA to ensure that it
has accurate information on where critical maintenance is performed so it can target
its inspection resources.




4
    The carriers represent a cross-section of nine of the largest network and low-cost air carriers and included
    AirTran Airways, Alaska Airlines, America West Airlines, Continental Airlines, Delta Air Lines, JetBlue
    Airways, Northwest Airlines, Southwest Airlines, and United Airlines. Because American Airlines, the
    largest U.S. air carrier, has retained its heavy maintenance as opposed to making a significant shift to
    outsourcing, we did not include it in our review.


                                                                                                                4
As shown in figure 3, external repair facilities certified by FAA are located
worldwide. A facility can obtain an FAA certificate when FAA has verified that the
facility has the equipment, personnel, manufacturers’ maintenance instructions, and
inspection systems necessary to ensure that repairs will be completed using FAA
standards. These facilities are referred to as repair stations. There are currently
4,235 domestic and 692 foreign FAA-certificated repair stations available for use by
U.S. air carriers.

       Figure 3. Locations of FAA-Certificated Repair Stations

                                                                                           Asia
                                                     Europe
                                                                                  176
                                                                   420
                            4,235
                                    U.S.
                            21
                                 11                                9
             Mexico
                                    38                                   Africa
                Central                                                                 17
               America                                                                  Australia
                                                South
                                               America                                   & New
                                                                                        Zealand
          Source: FAA Repair Station Query Website as of 1/30/07




In addition, there are approximately 900 repair facilities in Canada that could be used
by U.S. air carriers. Under a reciprocal agreement with the United States, Canadian
officials certify and monitor operations at these facilities. FAA provides oversight of
work performed on U.S. aircraft. At least two major U.S. carriers use Canadian
facilities to perform heavy airframe maintenance. As discussed later in our testimony,
air carriers also use domestic and other foreign non-certificated repair facilities to
perform aircraft maintenance.

FAA has assigned a portion of its inspector workforce to verify that foreign facilities
used by U.S. air carriers continue to meet FAA standards. As shown in table 1, FAA
has 103 International Field Office inspectors. Of these 103 inspectors, approximately
66 inspectors are located abroad (i.e., Germany, England, and Singapore).




                                                                                                    5
 Table 1. FAA International Field Office Inspectors and Their Areas
                          of Responsibility
   International   Number of Area of Responsibility     Number of
    Field Office    Inspectors                           Foreign
       (IFO)                                              Repair
                                                         Stations
  Dallas IFO                         4                       Mexico                21
                                                 Europe (excluding the United
                                                   Kingdom), Africa, and the
  Frankfurt IFO                     17                     Middle East             294
  London IFO                        45                  United Kingdom             163
                                                    South America, Central
  Miami IFO                         13            America, & The Caribbean         49
                                                    Australia, New Zealand,
                                                   Japan, Korea, Philippines,
                                                     Fiji, Taiwan, and other
  San Francisco IFO                 20           Asian-Pacific Island Nations      62
                                                   China, Hong Kong, India,
                                                      Indonesia, Malaysia,
                                                   Singapore, Thailand, and
  Singapore IFO                    4              other Asian-Pacific Nations      103
                                  103                                           692 Repair
  TOTAL                        Inspectors                                        Stations
 Source: FAA; data are as of January 30, 2007.


FAA recognizes the challenges it faces with the increased use of aircraft maintenance
repair facilities and has taken a number of steps to improve its repair station oversight.
For example, beginning in September 2006, FAA brought on-line an automated risk-
based oversight system for these facilities. This is a noteworthy accomplishment;
however, more work needs to be done if FAA is going to make the most effective use
of this system and its inspection resources.

FAA must continue its efforts to implement risk-based oversight systems. The trend
toward outsourcing is not limited to aircraft maintenance. Aircraft and engine
manufacturers are increasingly implementing their own form of outsourcing. Rather
than build the majority of their aircraft within their own facilities using their own
staff, manufacturers now have large sections of their aircraft built by domestic and
foreign part suppliers. For example, 1 major U.S. manufacturer uses major parts and
components from close to 1,200 domestic and foreign suppliers to manufacture its
aircraft. In fiscal year 2003, FAA recognized the changes occurring in the aviation
manufacturing industry and revised its oversight to a more risk-based approach.
However, the system was not designed to address the increasingly prominent role that



                                                                                             6
aircraft part and component suppliers now play in aviation manufacturing. We plan to
report on this important issue later this year.

Advancing FAA’s Risk-Based Oversight Systems
FAA has taken important steps to move its safety oversight for air carriers and repair
stations to risk-based systems. These systems are designed for inspectors to use
information obtained from analysis of data to focus oversight on areas posing the
greatest safety risks. Since 2000, we have monitored and reported on FAA’s progress
in implementing these systems. Risk-based oversight should significantly enhance
FAA’s ability to focus its inspections; however, we have identified a number of
concerns that FAA must address to continue advancing the programs.

FAA’s Risk-Based Oversight Approach for Air Carriers Needs To Be More
Flexible and Comprehensive
FAA introduced its risk-based oversight system for air carriers, the Air Transportation
Oversight System (ATOS), in 1998. We have always supported ATOS because the
essential design of the system is sound. In using ATOS, inspectors are to focus
oversight on areas posing the greatest safety risks based on analysis of data, such as
air carrier operations and maintenance information.

ATOS was a major shift from FAA’s old inspection programs, which focused more
on compliance with regulations and inspections in designated areas regardless of the
level of risk. For example, in FAA’s old oversight process, inspectors could conduct
hundreds of inspections of one air carrier even if no significant problems were found.
With ATOS, inspectors can obtain analyses on air carriers’ in-service maintenance
failures. Using this data, inspectors can focus their inspections on the specific areas
that led to the maintenance problems, such as engine failures, rather than performing
multiple inspections of the air carriers’ fleet.

FAA initially implemented ATOS at the 10 largest air carriers and did not expand the
program beyond this group of carriers until 2003. When first implemented, inspectors
did not widely accept ATOS as the best way to conduct oversight. In particular,
inspectors were concerned that under ATOS they were unable to spend enough time
on-site at air carriers. Also, inspectors thought that the ATOS inspection checklists
were too broad to provide useful information for risk analyses. In June 2005, we
reported 5 that FAA inspectors had difficulty using ATOS to respond to rapid changes
that air carriers were making to reduce costs, such as the increased use of external
repair facilities. We found that FAA needed to improve the following processes:




5
    OIG Report Number AV-2005-062, “Safety Oversight of an Air Carrier Industry in Transition,” June 3, 2005.


                                                                                                           7
 • Monitoring and conducting trend analysis of major air carrier changes—most
   network air carriers were making similar changes, but FAA only focused on those
   that were in or near bankruptcy.

 • Identifying risks in air carrier systems, prioritizing inspections, and shifting
   inspections to areas of greater risks. At the time of our review, inspectors for five
   air carriers did not complete 26 percent of their planned inspections—more than
   half of those not completed were in areas where inspectors had identified risks.

Events during the August 2005 Northwest Airlines mechanics strike underscored the
need for FAA to strengthen the flexibility and comprehensiveness of ATOS to permit
inspectors to respond to air carrier changes. Northwest’s mechanics initiated a strike
against the airline rather than agree to newly proposed contract terms. In response,
Northwest hired replacement mechanics and increased its use of outside (contract)
mechanics and maintenance facilities; however, it only hired approximately
1,400 mechanics to replace its previous internal staff of about 4,400 mechanics and
relied more extensively on outside maintenance providers.

FAA responded quickly in developing a plan to monitor the impact of these changes.
However, rather than use ATOS, FAA inspectors abandoned the system in favor of a
more simplified checklist, which they believed could be used to more quickly gather
the information needed to identify risks associated with the strike. Early inspection
reports disclosed deficiencies in replacement mechanic training—FAA inspectors
identified at least 121 problems related to replacement mechanics’ lack of knowledge
or ability to properly complete maintenance tasks and maintenance documentation.

However, these problems were documented in more than 800 individual, manually
prepared inspection reports rather than in the automated ATOS database. The
manager of the FAA office responsible for oversight of Northwest told us that the
ATOS data collection tools (checklists) were not specific enough to capture the data
that inspectors needed. In addition, he stated that parts of the ATOS process, such as
evaluating data quality, would be too time consuming. This demonstrates that FAA
inspectors did not see ATOS as flexible and comprehensive enough to meet their
oversight responsibilities during significant air carrier changes.

In March 2006, FAA issued new inspector guidance to aid inspectors in evaluating air
carrier changes and reviewed field office risk assessments to ensure that inspectors
were using ATOS to prioritize inspections. FAA must continually monitor inspector
compliance with this new guidance. By the end of this year, FAA plans to complete
ATOS implementation at all air carriers—currently, only 57 of the 118 commercial
air carriers are subject to this oversight system. As more air carriers are added to the
system, effective use of ATOS to prioritize inspections will become even more
critical.



                                                                                      8
FAA Must Ensure That Inspectors Are Effectively Using Its New Risk-Based
Oversight System for Repair Stations
In July 2003, we reported that FAA oversight had not shifted to where the
maintenance was actually being performed. Instead, inspectors continued to focus
inspections on in-house maintenance.           For example, inspectors completed
400 inspections of in-house maintenance at 1 air carrier but only 7 inspections of
repair stations. This occurred even though this carrier contracted out nearly half of its
maintenance that year.

Further complicating FAA’s ability to perform oversight of repair stations is the fact
that two groups of FAA inspectors monitor aircraft repair stations; however, at the
time of our review, neither group placed adequate emphasis on these facilities as part
of their surveillance. FAA’s district office inspectors have primary responsibility for
conducting repair station inspections but they typically only inspect repair stations
once or twice a year. Although FAA’s certificate management office inspectors
periodically inspect repair stations as part of their responsibility for oversight of their
assigned air carriers, these inspections are infrequent and do not include a review of
the work the repair station performs for other customers. In addition, we found
instances where district office and certificate management office inspectors did not
share the inspection results with each other.

We also reported that 138 repair stations in Germany, France, and Ireland were not
inspected by FAA at all. Under a bilateral agreement with the European Joint
Aviation Authorities, FAA permits foreign authorities to inspect FAA-certificated
repair stations on its behalf to prevent duplicative inspections and reduce the financial
burden on foreign repair stations. However, FAA did not have an adequate method to
monitor the surveillance performed by other authorities. For example, most of the
inspection files we reviewed that FAA received from the foreign authorities were
either incomplete, written in a foreign language, or otherwise difficult to comprehend.

Since our 2003 report, FAA officials have worked closely with the aviation
authorities of other countries to improve the surveillance they perform on FAA’s
behalf. However, we are concerned that FAA is still not regularly visiting the
facilities in the countries where agreements exist with other aviation authorities. For
example, FAA inspectors for 1 air carrier had not visited a major foreign engine repair
facility even though the repair station had performed maintenance on 39 (74 percent)
of the 53 engines repaired for the air carrier. In addition, the FAA international field
office inspectors for this facility had not conducted any spot inspections of this
facility in 5 years.

Nevertheless, FAA has made significant progress in improving its repair station
oversight. The most important improvement is development of a risk-based oversight
approach for FAA-certificated repair stations. FAA cannot provide continuous


                                                                                         9
          oversight of every maintenance facility. The new risk-based system was developed to
          assist inspectors in targeting resources for both repair station oversight and for
          oversight of air carriers’ maintenance outsourcing programs. For example, inspectors
          are now required to review 15 areas within repair station operations to obtain a
          baseline assessment of the facility. Using the information from this inspection,
          inspectors can focus their inspections on risk areas identified at the facility. Further,
          the information generated from this oversight will be available for review by all FAA
          inspectors to assist them in targeting their inspections more effectively.

          Under FAA’s old inspection system for repair stations, inspectors were instructed to
          perform one inspection of each facility per year and could review any aspect of the
          facility’s operations. Inspectors were not required to provide detailed information on
          the areas they inspected or the issues identified. As shown in table 2, FAA has
          initiated a number of other efforts that will enhance its oversight of FAA-certificated
          repair stations.

                                    Table 2. FAA Repair Station Initiatives
          Initiative                                  Description                                    Status
Enhanced Repair Station              A risk-based, standardized oversight system      Completed (beginning in fiscal year 2007)
Oversight System*                    for repair station and air carrier outsourcing
                                     surveillance.

Quarterly Utilization Report*        Reports that identify maintenance providers      Completed (This was implemented as a
                                     that air carriers and repair stations use for    voluntary reporting program in fiscal year
                                     the majority of their critical repairs.          2007; however, because the reports are not
                                                                                      mandatory, this does not fully address our
                                                                                      recommendation.)
Team Inspections*                    Annual in-depth repair station inspections       Completed (beginning in fiscal year 2006)
                                     conducted by FAA repair station inspectors
                                     and air carrier inspectors.
Rulemaking on Air Carrier            This rule would require specific language in     FAA is developing the rule.
Manuals for Outsourcing              air carriers’ manuals pertaining to
                                     outsourced maintenance, such as policies,
                                     procedures, and instructions for
                                     maintenance completed by external repair
                                     facilities.
Proposed Rulemaking on               This rule would revise the repair station        Comment period extended to April
Repair Stations                      ratings and require repair stations to
                                     establish a quality program. It also
                                     specifies instances in which FAA can deny
                                     a repair station certificate (e.g., when a
                                     company has had one revoked).

*Initiated as a result of our 2003 report.
 Source: FAA




                                                                                                                    10
However, these initiatives are either recently implemented or still in development. To
avoid repeating the types of implementation problems experienced with ATOS, FAA
needs to ensure that its inspectors are well-trained on the new systems and initiatives
for repair stations. Furthermore, FAA will need to verify that inspectors are
effectively implementing the new processes; however, FAA cannot effectively
implement a risk-based system for oversight of aircraft maintenance if it does not
know where the maintenance is performed.

Determining Where the Most Critical Maintenance Is
Performed and How it Should Be Monitored
In 2003, we reported that FAA inspectors did not have effective procedures for
determining which FAA-certificated repair stations air carriers were using to perform
maintenance that could impact the airworthiness of the aircraft. Air carriers are
required to provide, and FAA must approve, a list of substantial maintenance
providers, which are repair stations that can conduct major repairs on their aircraft.
These procedures are designed to provide inspectors with information on where air
carriers intend to send their substantial maintenance.

However, the information that air carriers provide may not represent the facilities the
carrier actually uses or show the quantity of work the carrier sends to each facility.
For example, we identified one foreign repair station designated as a substantial
maintenance provider for a major U.S. carrier that had not conducted any significant
maintenance work for the air carrier in almost 3 years. FAA’s surveillance should be
better targeted to those repair stations that carriers use regularly. The air carriers’
information also does not include the non-certificated facilities that they use.

In December 2005, we reported that FAA was unaware of air carriers’ use of non-
certificated repair facilities to perform critical maintenance. 6 These facilities are not
covered under FAA’s routine oversight program and do not have the same regulatory
requirements as repair stations that obtain certification from FAA.

FAA’s New Process for Identifying Certificated Repair Stations That Air
Carriers Use To Perform Maintenance Is Not Effective
In response to our July 2003 report, FAA implemented a system in fiscal year 2007
for both air carriers and repair stations to submit quarterly utilization reports. These
reports are supposed to show the quantity, or volume, of critical repairs that
maintenance providers perform for air carriers and repair stations. However,
submission of this information is not mandatory. FAA’s Flight Standards staff
advised us that a new rule would be required to make volume reporting mandatory
6
    In our December 2005 report, we identified critical repairs as those repairs categorized as Required Inspection
    Items by each air carrier. Required Inspection Items are mandatory maintenance activities that, due to the
    importance to the overall airworthiness of the aircraft, must be independently inspected by a specially trained
    inspector after the work is completed.


                                                                                                               11
and that they believed air carriers would provide the requested information
voluntarily. The first reports were due to FAA by December 31, 2006. Our review of
FAA records for nine air carriers showed that as of March 23, 2007, seven of the nine
air carriers had submitted quarterly utilization reports. FAA must ensure that air
carriers continue to file these reports in a timely manner.

Our primary concerns with the reports are that air carriers do not include all repair
stations that provide critical component repairs and that FAA does not validate the
information provided. Air carriers are only requested to report the top 10 substantial
maintenance providers used—the ones most frequently used per quarter. The reports
do not have to include repair stations that perform high-volume, critical component
repairs on parts such as wheels and brakes because FAA’s definition of substantial
maintenance does not include component repairs.

In addition, FAA inspectors are not required to validate air carrier data. Without
some form of data verification, FAA cannot be assured that air carriers have provided
accurate and complete information. If the reports are to be an effective means for
FAA to track and accurately target those repair stations that carriers use the most, a
more thorough process will be needed.

FAA Needs To Develop a Mechanism To Identify Non-Certificated Repair
Facilities Performing Critical Maintenance for Air Carriers
In December 2005, we identified air carriers’ use of repair facilities that have not been
certificated by FAA to perform critical and scheduled 7 aircraft maintenance and
reported that FAA was unaware of this practice. Air carriers have used non-
certificated facilities for years, but it was widely believed that these facilities
principally performed minor aircraft work on an as-needed basis.

Prior to our review, FAA officials advised us that non-certificated repair facilities
only performed minor services, such as welding of parts or changing tires. However,
we determined that non-certificated facilities can and do perform the same type of
work as FAA-certificated repair stations, including both scheduled and critical
maintenance. We identified 6 domestic and foreign facilities that performed
scheduled maintenance and 21 that performed maintenance critical to the
airworthiness of the aircraft.

We are especially concerned that air carriers rely on non-certificated facilities to
perform scheduled maintenance tasks that the carriers can plan for well in advance.
For example, we identified an air carrier’s use of a non-certificated facility to perform
work on three aircraft that was required for compliance with an FAA Airworthiness

7
    This is maintenance that is required to be performed at regularly scheduled times, such as inspections
    required after the aircraft has flown a designated number of hours (e.g., inspections of crew and passenger
    oxygen, aircraft fuselage, wings, and engines).


                                                                                                            12
Directive. Other critical repairs we found included adjustments to flight control
systems and removal and replacement of an engine.

FAA does not know how many non-certificated maintenance facilities air carriers
currently use because it does not maintain a list of the facilities. We sampled 19 air
carriers, and all 19 were using non-certificated facilities to some extent. We
identified over 1,400 non-certificated repair facilities performing maintenance, and
more than 100 of these facilities were located in foreign countries.

Permitting non-certificated facilities to perform critical maintenance is an important
issue that FAA must address. To do so, FAA must first determine which non-
certificated facilities perform critical and scheduled maintenance and then decide if it
should limit the type of work these facilities can perform.

FAA Cannot Rely on Air Carrier Oversight and Training Programs for Non-
Certificated Repair Facilities
FAA permits air carriers to use non-certificated facilities as long as the work is
approved by an FAA-certificated mechanic. However, this is not an adequate
substitute for an FAA-certificated repair facility because non-certificated facilities do
not have the safeguards and controls for maintenance repair and oversight that is
required at FAA-certificated facilities. Differences in FAA requirements between
these two types of maintenance operations are illustrated in table 3.

 Table 3. Differences in Requirements for FAA-Certificated Repair
              Stations and Non-Certificated Facilities
                     FAA                     Certificated          Non-Certificated
                 Requirement                Repair Station          Repair Facility
            Annual FAA                      Required              Not Required
            Inspections
            Quality Control System          Required              Not Required


            Reporting Failures,             Required              Not Required
            Malfunctions, and
            Defects
            Designated Supervisors          Required              Not Required
            and Inspectors

            Training Program                Required              Not Required
            Facilities and Housing*         Required              Not Required
           *If authorized to perform airframe repairs, certificated repair stations must have
            facilities large enough to house the aircraft they are authorized to repair.
            Source: OIG analysis




                                                                                                13
We found that air carrier quality systems under which these repairs were performed
were not as effective as they should have been. This was particularly true in the areas
of mechanic training and oversight of these facilities.

Non-certificated repair facilities are not required to employ designated supervisors
and inspectors to monitor maintenance work as it is being performed. Relying solely
on the expertise of an individual mechanic to ensure that repairs are completed
properly is an inadequate control mechanism. In our view, this is the reason FAA
requires added layers of oversight, such as designated supervisors and inspectors, in
its certificated facilities.

The importance of this issue became evident in the aftermath of the January 2003 Air
Midwest crash in Charlotte, North Carolina. Independent contract mechanics,
certificated by FAA and working for a non-certificated company, completed
maintenance on the aircraft the day before the accident. The mechanics incorrectly
adjusted a flight control system that was ultimately determined to be a contributing
cause of the crash—this work was approved by an FAA-certificated mechanic
employed by the non-certificated company. The National Transportation Safety
Board determined that contributing causes of the accident included Air Midwest’s
lack of oversight of the work performed by mechanics working for the non-
certificated entity and lack of FAA oversight of Air Midwest’s maintenance program.

In our December 2005 report, we also stated that neither FAA nor the six air carriers
we visited provided adequate oversight of the work performed at non-certificated
repair facilities. The air carriers we reviewed relied primarily on telephone contact to
monitor maintenance performed at these facilities rather than conducting on-site
reviews of the actual maintenance work. In contrast, as an added level of quality
control, air carriers often assign on-site representatives to monitor the work performed
at certificated repair stations.

Despite the differences in quality controls and oversight that exists between
certificated and non-certificated maintenance entities, there are no limitations on the
scope of work that non-certificated repair facilities can perform. For example, we
looked at critical repairs performed under special authorizations at 1 air carrier and
found that over a 3-year period, 14 of the 19 (74 percent) repairs were performed at
non-certificated repair facilities. Examples of the work performed include landing
gear checks, lightning strike inspections, and door slide replacements. In contrast,
repair stations that are certificated by FAA are limited to completing only the specific
maintenance tasks that FAA has determined the facility is capable of performing.

Air carrier training programs for mechanics working at non-certificated
facilities are not adequate. FAA regulations require air carriers to have mechanic
training and oversight programs for work performed by external maintenance
facilities. However, we found significant shortcomings in air carrier training and


                                                                                     14
oversight programs for non-certificated facilities. As shown in table 4, mechanic
training ranged from a 1-hour video to 11 hours of combined video and classroom
training; one carrier only required mechanics to review a workbook.

                            Table 4. Air Carrier Training*
                    Carrier                   Training Provided
                      A            Less than an 1 hour of video training
                      B            1.5 hours of classroom training
                      C            11 hours of combined classroom and
                                   video training
                        D          3.5 hours of combined classroom and
                                   video training
                        E          Maintenance procedures provided in a
                                   workbook that had to be signed and
                                   faxed back to the air carrier
                        F          3 to 4 hours of combined classroom and
                                   video training
                        G          4 hours of classroom training
                        H          3.5 hours of classroom training
                 *Training information obtained either from air carriers’ or non-certificated
                  facilities’ records.

FAA agreed that it needs to place more emphasis on the training and oversight that air
carriers provide to non-certificated facilities and that it needs to gather more
information on the type of work these facilities perform. FAA’s efforts in this area
are still underway. If FAA is to achieve the planned improvements in oversight of
outsourced maintenance, it will need to obtain definitive data on where air carriers are
getting the maintenance performed, including critical and scheduled maintenance
work done at non-certificated repair facilities so that it can focus its inspections to
areas of greatest risk.

Ensuring Inspectors Are Well-Positioned and Properly
Trained To Adequately Oversee Maintenance Outsourcing
In June 2005, we reported that FAA needed to ensure that its inspection workforce
was adequately staffed. Currently, FAA has approximately 3,865 inspectors located
in offices throughout the United States and in other countries. As shown in table 5,
these inspectors are responsible for a vast network of operators and functions.




                                                                                                15
                          Table 5. FAA Inspectors’ Workload
                  Commercial Air
                                          118            Flight Instructors     90,555
                     Carriers

                                                          FAA Designee
                  Repair Stations        4,927                                  11,000
                                                          Representatives

                   Active Pilots        744,803               Aircraft          347,326

                   Approved                               FAA-Licensed
                                         1,738                                  320,293
                  Manufacturers                            Mechanics

              Source: FAA

FAA will never have enough inspectors to oversee every aspect of aviation
operations. However, FAA faces challenges in balancing potential inspector
retirements with the number of inspectors it is able to hire. This year, 28 percent (or
1,085 of the 3,865) of the current inspector workforce will be eligible to retire. By
2010, 44 percent of the workforce will be eligible to retire. To counter this trend,
FAA requested funding to hire an additional 203 aviation safety inspectors in its fiscal
year 2008 budget submission. In 2006, FAA hired 538 inspectors, but lost 226 (181
to retirements and 45 for other reasons). However, even if FAA receives funding and
is able to hire additional inspectors, it will need to know where to place inspectors to
make the most effective use of its resources.

FAA Needs a Process To Determine Inspector Placement
Maintaining an adequate workforce is only one of the challenges FAA faces with its
inspectors. FAA does not have a process to determine the number of inspectors
needed and where they should be placed. FAA has made at least two attempts to
develop a staffing model to determine the number and best locations for its inspectors.
However, neither of the two models provided FAA with an effective approach to
allocate inspector resources. At the request of this Subcommittee, in September 2006,
the National Research Council completed a study of FAA’s current methods for
allocating inspector resources. 8 This study validated the concerns that we have
expressed in many of our past reports—that FAA’s current method of allocating
inspectors is antiquated and must be redesigned to effectively target inspectors to
those areas of higher risk.

During our review of FAA oversight of financially distressed and low-cost air
carriers, we found inconsistencies in the way inspectors were allocated among field
offices. For example, two FAA offices had the same number of inspectors assigned to


8
    Study completed by the National Research Council of the National Academies, “Staffing Standards for
    Aviation Safety Inspectors,” publicly released September 20, 2006.


                                                                                                    16
oversee the air carriers in their geographic areas even though one of those carriers had
twice as many aircraft and 127 percent more flights than the other.

We also found that inspectors were not assigned to the locations where they were
needed most. For example, FAA currently has 1 operations inspector assigned to Des
Moines, Iowa, where his assigned air carrier averages only 6 flights per day but does
not have an operations inspector assigned to Chicago, Illinois, where the same air
carrier averages 298 flights each day.

Conversely, there are other FAA inspectors that have substantial workloads. For
example, in 2003, we identified 1 inspector that was assigned oversight for 21 repair
stations, 21 agricultural operations, 12 service–for-hire operators, 3 general aviation
operators, 2 helicopter organizations, and 1 maintenance school. At that time,
inspectors in the 9 field offices we reviewed were responsible for oversight of an
average of 9 repair stations and 14 other operations.

Until FAA implements the Council’s recommendations and develops an effective
staffing model, it will not be able to determine where inspectors should be placed to
make the most effective use of its resources. The Council reported that the changing
U.S and global aviation landscape has important implications, which are expected to
be key drivers of future inspector staffing needs. For example, outsourcing of aircraft
maintenance, FAA’s shift to a system safety oversight approach, and the attrition and
retirement of safety inspectors are all important changes that must be considered in
determining staffing needs.

Further, the Council stressed that FAA must ensure that it has safety inspectors that
are sophisticated database users with knowledge of system safety principles and an
analytical approach to their work. This is a different skill set from the one that
supports on-site inspections of air carrier, aircraft maintenance, and aircraft
manufacturers operations.

FAA advised us that it fully intends to implement the Council’s recommendations but
that it must first procure the services of an independent contactor to obtain the most
effective staffing mechanism. However, completion of this process is likely years
away.

Mr. Chairman, that concludes my statement. I would be pleased to address any
questions you or other Members of the Subcommittee might have.




                                                                                     17
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
       Aviation Safety: The Federal Aviation Administration’s Oversight of
                        Outsourced Maintenance Facilities

                           Section 508 Compliant Presentation

Figure 1. Percentage Increase in Outsourced Maintenance Expense for Major
Air Carriers From 1996 to 2005

 (Year) 1996       Of the total maintenance cost, 37 percent was outsourced maintenance expense.
 (Year) 1997       Of the total maintenance cost, 38 percent was outsourced maintenance expense.
 (Year) 1998       Of the total maintenance cost, 41 percent was outsourced maintenance expense.
 (Year) 1999       Of the total maintenance cost, 45 percent was outsourced maintenance expense.
 (Year) 2000       Of the total maintenance cost, 44 percent was outsourced maintenance expense.
 (Year) 2001       Of the total maintenance cost, 47 percent was outsourced maintenance expense.
 (Year) 2002       Of the total maintenance cost, 47 percent was outsourced maintenance expense.
 (Year) 2003       Of the total maintenance cost, 51 percent was outsourced maintenance expense.
 (Year) 2004       Of the total maintenance cost, 54 percent was outsourced maintenance expense.
 (Year) 2005       Of the total maintenance cost, 62 percent was outsourced maintenance expense.
Source: United States Department of Transportation Form 41 Reports



Figure 2. Percentage of Heavy Airframe Maintenance Checks Outsourced for
Nine Major Air Carriers From 2003 to 2006

 (Year) 2003        1,126 total checks:   of this amount, 385 (or 34 percent) were outsourced.
 (Year) 2004        1,212 total checks:   of this amount, 455 (or 38 percent) were outsourced.
 (Year) 2005        1,163 total checks:   of this amount, 662 (or 57 percent) were outsourced.
 (Year) 2006        1,208 total checks:   of this amount, 815 (or 67 percent) were outsourced.
Source: Air carrier data

Figure 3. Locations of Federal Aviation Administration-Certificated Repair
Stations

 United States                   4,235 Repair Stations
 Mexico                          21 Repair Stations
 Central America                 11 Repair Stations
 South America                   38 Repair Stations
 Europe                          420 Repair Stations
 Africa                          9 Repair Stations
 Asia                            176 Repair Stations
 Australia and New Zealand       17 Repair Stations
Source: Federal Aviation Administration Query Website as of January 30, 2007
Table 1. Federal Aviation Administration Field Office Inspectors and Their
Areas of Responsibility

 Dallas International         4 InspectorsArea of Responsibility:             21 Foreign
 Field Office                             Mexico                           Repair Stations
 Frankfurt International   17 Inspectors Area of Responsibility:             294 Foreign
 Field Office                             Europe (excluding the United Repair Stations
                                          Kingdom), Africa, and the
                                          Middle East
 London International      45 Inspectors Area of Responsibility:             163 Foreign
 Field Office                             United Kingdom                   Repair Stations
 Miami International       13 Inspectors Area of Responsibility:              49 Foreign
 Field Office                             South America, Central           Repair Stations
                                          America, and the Caribbean
 San Francisco             20 Inspectors Area of Responsibility:              62 Foreign
 International Field                      Australia, New Zealand,          Repair Stations
 Office                                   Japan, Korea, Philippines,
                                          Fiji, Taiwan, and other
                                          Asian-Pacific Island Nations
 Singapore                  4 Inspectors Area of Responsibility:             103 Foreign
 International Field                      China, Hong Kong, India,         Repair Stations
 Office                                   Indonesia, Malaysia,
                                          Singapore, Thailand, and
                                          other Asian-Pacific Nations
Totals shown in table 1 are as follows: 103 total international field office inspectors and
692 total foreign repair stations.
Source: Federal Aviation Administration; data are as of January 30, 2007
  Table 2. Federal Aviation Administration Repair Station Initiatives

   Initiative                          Description                              Status
Enhanced                 A risk-based, standardized oversight        Completed (beginning in fiscal
Repair Station           system for repair station and air carrier   year 2007)
Oversight                outsourcing surveillance.
System (Initiated
as a result of our
2003 report.)
Quarterly                Reports that identify maintenance           Completed (This was
Utilization              providers that air carriers and repair      implemented as a voluntary
Report (Initiated        stations use for the majority of their      reporting program in fiscal year
as a result of our       critical repairs.                           2007; however, because the
2003 report.)                                                        reports are not mandatory, this
                                                                     does not fully address our
                                                                     recommendation.)
Team                     Annual in-depth repair station              Completed (beginning in fiscal
Inspections              inspections conducted by FAA repair         year 2006)
(Initiated as a result   station inspectors and air carrier
of our 2003 report.)     inspectors.
Rulemaking on            This rule would require specific            FAA is developing the rule.
Air Carrier              language in air carriers’ manuals
Manuals for              pertaining to outsourced maintenance,
Outsourcing              such as policies, procedures, and
                         instructions for maintenance completed
                         by external repair facilities.
Proposed                 This rule would revise the repair station   Comment period extended to
Rulemaking on            ratings and require repair stations to      April
Repair Stations          establish a quality program. It also
                         specifies instances in which the Federal
                         Aviation Administration can deny a
                         repair station certificate (e.g., when a
                         company has had one revoked).
  Source: Federal Aviation Administration
Table 3. Differences in Requirements for Federal Aviation Administration-
Certificated Repair Stations and Non-Certificated Facilities

 Federal Aviation Administration               Required at Federal                Not Required at
 Requirement: Annual Federal                   Aviation Administration-           Non-Certificated
 Aviation Administration Inspections           Certificated Repair Stations       Facilities
 Federal Aviation Administration               Required at Federal                Not Required at
 Requirement: Quality Control System           Aviation Administration-           Non-Certificated
                                               Certificated Repair Stations       Facilities
 Federal Aviation Administration               Required at Federal                Not Required at
 Requirement: Reporting Failures,              Aviation Administration-           Non-Certificated
 Malfunctions, and Defects                     Certificated Repair Stations       Facilities
 Federal Aviation Administration               Required at Federal                Not Required at
 Requirement: Designated Supervisors           Aviation Administration-           Non-Certificated
 and Inspectors                                Certificated Repair Stations       Facilities
 Federal Aviation Administration               Required at Federal                Not Required at
 Requirement: Training Program                 Aviation Administration-           Non-Certificated
                                               Certificated Repair Stations       Facilities
 Federal Aviation Administration               Required at Federal                Not Required at
 Requirement: Facilities and Housing           Aviation Administration-           Non-Certificated
                                               Certificated Repair Stations       Facilities
Note to Facilities and Housing Requirement: If authorized to perform airframe repairs, certificated
repair stations must have facilities large enough to house the aircraft they are authorized to repair.
Source: Office of Inspector General analysis

Note to Table 4: Air carrier training programs for mechanics working at non-certificated
facilities are not adequate. Federal Aviation Administration regulations require air carriers to
have mechanic training and oversight programs for work performed by external maintenance
facilities. However, we found significant shortcomings in air carrier training and oversight
programs for non-certificated facilities. As shown in table 4, mechanic training ranged from
a 1-hour video to 11 hours of combined video and classroom training; one carrier only
required mechanics to review a workbook.

Table 4. Air Carrier Training

 Carrier A       Provided less than an 1 hour of video training
 Carrier B       Provided 1.5 hours of classroom training
 Carrier C       Provided 11 hours of combined classroom and video training
 Carrier D       Provided 3.5 hours of combined classroom and video training
 Carrier E       Provided maintenance procedures in a workbook that had to be signed and
                 faxed back to the air carrier
 Carrier F       Provided 3 to 4 hours of combined classroom and video training
 Carrier G       Provided 4 hours of classroom training
 Carrier H       Provided 3.5 hours of classroom training
Source: Training information obtained either from air carriers’ or non-certificated facilities’ records.
Table 5. Inspectors’ Workload

 Commercial Air Carriers        118       Flight Instructors   90,555

 Repair Stations                4,927     FAA Designee         11,000
                                          Representatives

 Active Pilots                744,803 Aircraft                 347,326

 Approved Manufacturers         1,738     FAA-Licensed         320,293
                                          Mechanics

Source: Federal Aviation Administration
